Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medicare Allowed Charges for
       Orthotic Body Jackets




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 2000
                      OEI-04-97-00391
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, and
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                               HEADQUARTERS

Greg Jones, Project Leader                           Stuart Wright, Program Specialist
Betty Apt, Team Leader                               Winnie Walker, Program Specialist
Peggy Daniel, Program Analyst                        Barbara Tedesco, Statistician




     To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723.
         Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                            TABLE OF CONTENTS

                                                                                                                           PAGE


EXECUTIVE SUMMARY                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


FINDINGS

      Medicare Pays More Than Medicaid . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Medicare Often Pays More Than Tricare . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         Medicare Reimbursement Rates Exceeded Suppliers Cost . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES

    A: Potential Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                       EXECUTIVE SUMMARY

PURPOSE

        To analyze the reasonableness of Medicare allowed charges for orthotic body jackets coded
        L0430.

BACKGROUND

        Medicare covers spinal orthoses only when ordered by a physician. Payments for orthotics
        are based on a fee schedule. Payments are either the fee schedule rate or the actual charge
        billed by the supplier, whichever is lower.

        In 1999, the OIG reported that although all orthotic devices claimed as code L0430 in
        1996 were eligible for some level of Medicare reimbursement, suppliers had upcoded 42
        percent of the claims. This study is a follow-on to the 1999 report.

FINDINGS

Medicare Pays More for L0430 Orthotic Body Jackets than Medicaid

        On average, in the eight States we reviewed, Medicare rates exceeded the Medicaid rate by
        21 percent.

Medicare Often Pays More for L0430 Orthotic Body Jackets than Tricare

        For half of the eight States we reviewed, the Medicare reimbursement rate exceeded
        Tricare (formerly CHAMPUS) rates by an average of 7.4 percent.

Medicare Reimbursement Rates Greatly Exceeded the Prices Suppliers Paid for
Orthotic Body Jackets

        The Medicare allowed charge, compared to suppliers’ costs for code L0430 devices,
        resulted in a mark-up in cost ranging from 54 percent to 829 percent. Therefore,
        Medicare’s allowed charges for orthotic body jackets sold under Medicare code L0430
        may be allowing excessive profits for some suppliers.

        We defined mark-up as the difference between the supplier invoice cost and the Medicare
        allowed charge.



Medicare Payments for Orthotic Body Jackets      1                                   OEI-04-97-00391
RECOMMENDATION

        The Balanced Budget Act of 1997 gave HCFA greater flexibility in determining
        appropriate reimbursement rates when rates are found to be grossly excessive, deficient, or
        not inherently reasonable. That inherent reasonableness authority was limited by a
        provision of the Balanced Budget Refinement Act of 1999. However, we continue to
        support the need for more reasonable Medicare prices for orthotic body jackets.

        Medicare allowed charge resulted in mark-ups which ranged from 54 percent to 832
        percent. Such Medicare rates could allow excessively high profits in some instances. Both
        State Medicaid agencies and Tricare have shown that suppliers will make L0430 orthotic
        body jackets available to government beneficiaries at lower prices than what Medicare
        pays.

        Therefore, we recommend that HCFA:

        determine the appropriateness of Medicare allowed charges for orthotic
        body jackets and adjust Medicare reimbursement accordingly.

        Depending on what HCFA determines to be a reasonable mark-up, Medicare and its
        beneficiaries could have saved $14,212 if the mark-up had been limited to 500 percent for
        the 45 orthotic devices in our sample. If the mark-up had been limited to 100 percent, the
        savings would have been $48,174. Projected to the Medicare universe the potential
        savings would be between $227,380 and $770,780.

AGENCY COMMENTS

        The Administrator, Health Care Financing Administration commented on our draft report.

        She noted that the Balanced Budget Refinement Act of 1999 precludes HCFA from using
        its inherent reasonableness authority to change Medicare allowed charges for orthotic body
        jackets. Appendix B contains the full text of HCFAs comments.

        We modified our recommendation to reflect the limitations in HCFAs authority. We are
        pleased that HCFA agreed to review the appropriateness of allowed charges for orthotic
        body jackets once they issue their new final rule on its inherent reasonableness authority.




Medicare Payments for Orthotic Body Jackets       2                                    OEI-04-97-00391
                                       INTRODUCTION

PURPOSE

        To analyze the reasonableness of Medicare allowed charges for orthotic body jackets coded
        L0430.

BACKGROUND

Medicare Coverage of Orthotic Body Jackets

        Medicare covers spinal orthoses only when specific conditions are met. They must be
        ordered by a physician to reduce pain by restricting mobility of the trunk, to facilitate
        healing following an injury or surgical procedure on the spine, or to support weak spinal
        muscles or a deformed spine.

        Medicare payments for durable medical equipment, orthotics, and prosthetics are based on
        a fee schedule. Payments are either the fee schedule rate or the actual charge billed by the
        supplier, whichever is lower. The fee schedule methodology uses historical data to
        determine an appropriate reimbursement rate. Fee schedules are updated year to year,
        based on the consumer price index or as directed by legislation.

Previous Office of Inspector General Studies on Orthoses

        In 1994, the Office of Inspector General (OIG) reported that 95 percent of claims
        submitted in 1991 for orthotic body jackets coded L0430 were non-legitimate and should
        not have been paid.1 The devices supplied were usually nothing more than a seat cushion
        for a wheel chair patient. A companion report2 described suppliers’ marketing practices for
        orthotic body jackets.

        In 1997, the OIG reported that at least 19 percent of orthotics claimed for Medicare
        reimbursement were medically unnecessary.3




         1
             Medicare Payments for Orthotic Body Jackets (OEI-04-92-01080)

         2
             Marketing of Orthotic Body Jackets (OEI-04-92-01081)

         3
             Medicare Payments for Orthotics (OEI-02-95-00380)



Medicare Payments for Orthotic Body Jackets                         3                 OEI-04-97-00391
        In 1999, the OIG reported that although all orthotic devices claimed as code L0430 in
        1996 were eligible for some level of Medicare reimbursement, suppliers had upcoded 42
        percent of the claims.4

        As part of our 1999 study we obtained supplier invoices. The invoices disclosed the
        amount that suppliers’ paid for orthotic body jackets. The suppliers’ costs raised questions
        as to the appropriateness of Medicare allowed charges. To obtain some insight into the
        reasonableness of Medicare allowed charges we examined suppliers’ mark-up. We did so
        by comparing suppliers costs to the Medicare allowed charge. We also looked at
        reimbursement rates of other government payers.

METHODOLOGY

        We compared Medicare 1998 L0430 reimbursement rates to 1998 rates for Medicaid and
        Tricare (formerly CHAMPUS). For our comparison, we chose five States that account for
        approximately 40 percent of Medicare expenditures and beneficiaries: California, Texas,
        New York, Florida, and Illinois. To add variation to our analysis, we also included three
        smaller States: Georgia, Connecticut, and Massachusetts. We selected Medicaid and
        Tricare for comparison because, like Medicare, they are public payers. We obtained
        reimbursement rates and rate setting methodology from pricing representatives of State
        Medicaid and Tricare organizations. We then compared those rates to Medicare allowed
        charges.

        To get additional insight into the reasonableness of Medicare reimbursement for code
        L0430 orthotic body jackets we determined suppliers’ mark-up by comparing invoice costs
        to the Medicare allowed charge.

        To do this we reviewed a 5 percent sample of claims for code L0430 contained in HCFA’s
        1996 National Claims History File. This sample consisted of 302 L0430 claims which had
        been filed in 1996. We dropped 3 of the 302 claims because we could not locate the
        address for the supplier. This left us with a sample of 299 paid claims which represented
        126 suppliers and 289 beneficiaries. Ten beneficiaries in our sample received two body
        jackets each. We surveyed the 126 suppliers by mail questionnaire.

        Of 85 suppliers who responded to our survey, 44 (51.8 percent) provided requested
        invoices showing how much suppliers paid manufacturers for the devices they supplied to
        Medicare beneficiaries. The invoices enabled us to determine the amount that Medicare
        allowed charges exceeded suppliers’ costs for orthotic devices (i.e., percent mark-up). The
        invoices represented 122 claims or devices.

        Because our 1999 inspection, Medicare Payments for Orthotic Body Jackets (OEI-04-97-
        00390, showed that 42 of the 122 devices had been up-coded by suppliers, we removed


         4
             Medicare Payments for Orthotic Body Jackets (OEI-04-97-00390)



Medicare Payments for Orthotic Body Jackets                       4                   OEI-04-97-00391
        them from our review. Therefore, our final analysis consisted of 80 orthotic body jacket
        claims from 24 suppliers.

        Finally, we interviewed HCFA officials who are responsible for the reimbursement and
        payment for orthotics and prosthetics, pricing representatives from the Region C Durable
        Medical Equipment Regional Carrier (DMERC), the coding staff from the Statistical
        Analysis Durable Medical Equipment Regional Carrier (SADMERC), officials from the
        American Orthotic and Prosthetic Association (AOPA)--the trade organization which
        represents the industry, and numerous licensed orthotists.

                                     _ _ _ _ _ _ _ _ _ _ _ _ _


        We did our inspection between September 1997 and June 1999. We conducted the
        inspection in accordance with the Quality Standards for Inspections issued by the
        President's Council on Integrity and Efficiency.




Medicare Payments for Orthotic Body Jackets      5                                  OEI-04-97-00391
                                         FINDINGS

Medicare pays more for L0430 orthotic body jackets than
Medicaid
Medicare payments exceeded Medicaid payments by 21 percent

        Medicaid is a jointly funded cooperative venture between the Federal and State
        governments to assist States in the provision of adequate medical care to eligible needy
        persons. All of the States in our analysis reimbursed for an L0430 orthotic body jacket.

        On average, in the eight States we reviewed, the Medicare rates exceeded the Medicaid
        rate by 21 percent. The Medicaid rates ranged from a high of $1,073 in Texas to a low of
        $399 in Florida which respectively is 5.7 percent and 61.7 percent lower than the Medicare
        rates in those same States.

                                          Table 1 

                  Comparison of Medicare and Medicaid Reimbursement Rates 

                                  for Orthotic Body Jackets



                                        Medicare         Medicaid      % Difference
                                    Allowed Charge   Allowed Charge   from Medicare

                        TX               $1,138          $1, 073          - 5.71

                         IL              $1,136           $976            - 14.1

                        CA               $1,122           $690            - 38.5

                        GA               $1, 042          $938            - 10.0

                        FL               $1, 042          $399            - 61.7

                        NY               $1,036           $900            - 13.1

                        MA                $981            $864            - 11.9

                        CT                $981            $883            - 10.0


State Medicaid rates are partially based on Medicare rates

        Each State has a distinct history and methodology for the way in which reimbursement for
        orthotics and prosthetics is determined. Most States noted that orthotic body jackets are
        not products they deal with a lot. In fact, California Medicaid paid for only 11 in 1998.
        However, most of the Medicaid pricing representatives noted that the Medicare rate played
        some role in the determination of their L0430 reimbursement rate.



Medicare Payments for Orthotic Body Jackets          6                                OEI-04-97-00391
        For example, Georgia and Connecticut use the Medicare allowed charges for all durable
        medical equipment and reduce that amount by 10 percent.

        Massachusetts, Illinois, and Texas also use the Medicare rate in their reimbursement
        methodology. Massachusetts Medicaid staff said their goal is to not be any higher than the
        Medicare rate, and in most cases they are a little lower. They also noted that a 11.9
        percent rate below Medicare’s was probably a little lower than usual. They expressed their
        plans to increase their rate by 1.4 percent in the near future.

        Illinois reimbursement rate is 14.1 percent less than Medicare. However, they said they
        plan to bring it up to the Medicare level of $1,136. On a slightly different note from other
        States, the Illinois representative said their goal is to keep the rates at the Medicare level.
        They believe this was needed so they will not lose providers and therefore be unable to
        meet the needs of Medicaid beneficiaries.

        Texas had the highest Medicaid allowed charge which was 5.7 percent less than their
        respective Medicare rate. In addition to the Medicare rate, Texas uses historical trend data
        and the reimbursement rate for another health program in the State to determine their
        reimbursement rate.

        Florida and California have the lowest reimbursement among the eight States we reviewed.
        To date both Florida and California have not received any formal complaints from suppliers
        about their rates.

        Florida’s unusually low rate of $399 can in some part be explained by the fact that they
        established their rates in 1990 based on 80 percent of the Medicare allowed charge. Then in
        1995, the Florida legislature mandated a 3 percent across the board rate reduction for all
        durable medical equipment including orthotics and prosthetics.

        A California Medicaid representative noted that their low L0430 reimbursement rate was
        an anomaly. They explained California’s other durable medical equipment Medicaid
        reimbursement rates are usually in the upper sixty percentile of the Medicare rates.

        New York was the only State where the Medicare rate did not have an influence on their
        reimbursement rate. Pricing representatives noted the $900 rate was set in 1982 and was
        very inflated for that time period.

Medicare often pays more for L0430 orthotic body jackets
than Tricare
        Tricare (formerly CHAMPUS) is the health care program for active duty and retired
        members of the uniformed services, their families, and survivors. In four of the eight States
        we reviewed, the Medicare reimbursement rate for L0430 orthotic body jackets exceeded
        the Tricare rates by an average of 7.4 percent. Only one State we reviewed, New York,
        paid more than Medicare. Connecticut, Illinois, and Massachusetts did not have any claims

Medicare Payments for Orthotic Body Jackets        7                                     OEI-04-97-00391
        billed in 1998. However, their general practice is to reimburse code L0430 invoices as
        billed by suppliers.

                                            Table 2

                       Comparison of Medicare and Tricare Reimbursement 

                                Rates for Orthotic Body Jackets 



                                     Medicare          Tricare        % Difference
                                  Allowed Charge   Allowed Charge   from Medicare

                      TX               $1,138          $1,036            -8.9

                      IL               $1,136            t                t

                      CA               $1,122          $1,036            -7.7

                     GA                $1, 042         $975              -6.4

                      FL               $1, 042         $975              -6.4

                      NY               $1,036          $1,347           +30.0

                     MA                 $981             t                t

                      CT                $981             t                t

                t = no claims billed in 1998


        The Tricare Policy Manual states that the maximum allowable amount for a customized
        item of durable medical equipment (which includes orthotics and prosthetics) may be
        determined by a Tricare contractor using documented evidence of retail prices for
        customization in the State of purchase. If a contractor cannot derive precise data on the
        frequency of services from its records, it may use any information it has about the volume
        of business done by various suppliers in its area in order to develop the maximum allowable
        charge.




Medicare Payments for Orthotic Body Jackets        8                                 OEI-04-97-00391
Medicare reimbursement rates greatly exceeded the prices
suppliers paid for orthotic body jackets
        We compared 24 suppliers’ costs to the Medicare allowed charge for 80 orthotic body
        jacket devices. Our comparison showed that the Medicare allowed charge resulted in a
        mark-up in cost ranging from 54 percent to 832 percent (See Table 3).

        Table 3 shows the wide variation in mark-up. We observed that 3 of the 24 suppliers
        received a mark-up between 200 and 300 percent. This represented 33 percent of the 80
        claims. Of the 24 total suppliers, 8 received a mark-up in excess of 700 percent. The 40
        claims submitted by these 8 suppliers represented 50 percent of the 80 claims in our
        sample.


                                                  Table 3

                                       Mark-up for Code L0430 in 1996


                               %               # of            # of      % of
                               Mark-Up         Suppliers       Claims   Claims

                               54-100          1               1            1

                               101-200         7               8           10

                               201-300         3               26         32.5

                               301-400         1               1           1.3

                               401-500         4               4            5

                               501-600         0               0            0

                               601-700         0               0            0

                               701-800         4               17         21.3

                               800-832         4               23         28.8

                               Total           24              80         100


        The mark-up is the difference between the supplier invoice cost and the Medicare allowed
        charge. It includes supplier expenses such as overhead and professional services to fit
        orthotic devices. It also includes supplier profit.

        We did not determine what is or is not an appropriate mark-up for orthotic body jackets.
        Further, HCFA headquarters officials told us they do not know what would be a reasonable
        and appropriate mark-up. HCFA did observe that an extremely wide variation in what
        suppliers pay to manufacturers for L0430 orthotic body jackets could indicate differences
        in quality of the devices. They were not sure that this was the case with our sample, and
        we did not examine differences in quality. According to a review by the SADMERC,
        however, all of the devices in our sample met Medicare’s standards to qualify as an L0430
        orthotic body jacket.


Medicare Payments for Orthotic Body Jackets                9                        OEI-04-97-00391
        Some of the generous mark-ups may be explained by supplier effectiveness at obtaining
        discounts from manufacturers for devices sold to Medicare beneficiaries. Another possible
        explanation could be geographic variations. However, it seems unlikely that such
        variations would explain mark-up differences ranging from 54 to 832 percent. Therefore,
        Medicare’s allowed charges for orthotic body jackets sold under code L0430 may be
        allowing excessive, unreasonable profits for some suppliers.

        Table 4 shows potential Medicare costs for the 80 devices in our sample based on various
        levels of mark-up. The table also shows the difference between those potential Medicare
        costs and the actual Medicare costs for the 80 devices.

                                                Table 4

                    Potential Savings to Medicare Based on Various Mark-up Levels


                  # of           Actual          If Mark-Up         Mark-Up         Actual           Potential       Potential
                  Orthotic       Supplier        Levels (%)         Multiplie       Medicare         Medicare        Savings/
                  Body           Cost5           are                r               Cost6            Cost7           Additional
                  Jackets                                                                                            Cost to
                                                                                                                     Medicare8

                  80             $18,869         100                (2)             $85,592          $37,738         $47,854

                  80             $18,869         200                (3)             $85,592          $56,607         $28,985

                  80             $18,869         300                (4)             $85,592          $75,476         $10,116

                  80             $18,869         400                (5)             $85,592          $94,345         ($8,753)

                  80             $18,869         500                (6)             $85,592          $113,214        ($27,622)

                  80             $18,869         600                (7)             $85,592          $132,083        ($46,491)

                  80             $18,869         700                (8)             $85,592          $150,952        ($65,360)

                  80             $18,869         800                (9)             $85,592          $169,821        ($84,229)




         5
             $18,869 is the actual cost that all suppliers in our sample paid for the 80 orthotic claims.

         6
             $85,592 is the actual total amount that Medicare reimbursed for all 80 orthotic claims in our sample.

         7
              Potential Medicare Cost = (Actual Supplier Cost * Mark-Up Multiplier)

         8
              Potential Savings = (Actual Medicare Cost - Potential Medicare Cost)



Medicare Payments for Orthotic Body Jackets                               10                                                      OEI-04-97-00391
                        RECOMMENDATIONS


        The Balanced Budget Act of 1997 gave HCFA greater flexibility in determining
        appropriate reimbursement rates when rates are found to be grossly excessive, deficient, or
        not inherently reasonable. That inherent reasonableness authority was limited by a
        provision of the Balanced Budget Refinement Act of 1999. However, we continue to
        support the need for more reasonable Medicare prices for orthotic body jackets.

        Medicare allowed charge resulted in mark-ups which ranged from 54 percent to 832
        percent. Such Medicare rates could allow excessively high profits in some instances. Both
        State Medicaid agencies and Tricare have shown that suppliers will make L0430 orthotic
        body jackets available to government beneficiaries at lower prices than what Medicare
        pays.

        Therefore, we recommend that HCFA:

        determine the appropriateness of Medicare allowed charges for orthotic
        body jackets and adjust Medicare reimbursement accordingly.

        The potential savings to Medicare and its beneficiaries will vary depending on what HCFA
        determines to be a reasonable mark-up. For example, the Table below shows the potential
        savings based on various levels of mark-up for the 45 orthotic claims we reviewed.
        Appendix A shows our calculations.

              Mark-up limit       # of claims   Potential Savings   Projected Savings to
                                                for Sample          theMedicare
                                                                    Universe
              100%                45            $48,174             $770,780
              300%                45            $25,201             $403,220
              500%                45            $14,212             $227,380




Medicare Payments for Orthotic Body Jackets      11                                   OEI-04-97-00391
                         AGENCY COMMENTS


        The Administrator, Health Care Financing Administration commented on our draft report.

        She noted that the Balanced Budget Refinement Act of 1999 precludes HCFA from using
        its inherent reasonableness authority to change Medicare allowed charges for orthotic body
        jackets. Appendix B contains the full text of HCFAs comments.

        We modified our recommendation to reflect the limitations in HCFAs authority. We are
        pleased that HCFA agreed to review the appropriateness of allowed charges for orthotic
        body jackets once they issue their new final rule on its inherent reasonableness authority.




Medicare Payments for Orthotic Body Jackets       12                                   OEI-04-97-00391
                                                                                                                                                     APPENDIX A


Potential Savings by Limiting Mark-up for Code
L0430 to 300 percent

      1             2               3                   4                   5                6               7              8               9             10          11
                                               Weighted               Invoice          Weighted                                            100%         300%        500%
              # of            Medicare Avg     Medicare Avg           Cost of          Invoice Cost                                     *Potential    Potential   Potential
 Supplier #   Claims          Allwd Chg        Allwd Chg              Device           of device        $ Mark-up       % Mark-Up        Savings      Savings     Savings
          54              1          $1,081              $1,081                 $700             $700          $381            54.4
            1             1          $1,004              $1,004                 $490             $490          $514           104.9           $24
          27              2          $1,004              $2,008                 $480             $960          $524           109.2           $88
            3             1            $998                $998                 $460             $460          $538           117.0           $78
          34              1          $1,096              $1,096                 $425             $425          $671           157.9          $246
          45              1            $900                $900                 $329             $329          $571           173.6          $242
          43              1            $945                $945                 $345             $345          $600           173.9          $255
          20              1            $998                $998                 $350             $350          $648           185.1          $298
            26           24          $1,081                 $25,944             $350          $8,400             $731           208.9      $9,144
            59            1          $1,094                  $1,094             $325            $325             $769           236.6        $444
             4            1          $1,004                  $1,004             $255            $255             $749           293.7        $494
          21.1            1          $1,096                  $1,096             $238            $238             $858           360.5        $620          $144
            21            1          $1,096                  $1,096             $218            $218             $878           402.8        $660          $224
             5            1            $990                   $990              $176            $176             $814           461.4        $637          $285
             6            1          $1,004                  $1,004             $176            $176             $828           469.4        $651          $299
            33            1          $1,094                  $1,094             $183            $183             $911           497.8        $728          $362
            31            2          $1,081                  $2,162             $129            $259             $952           736.4      $1,645        $1,128       $611
            24            1          $1,081                  $1,081             $129            $129             $952           736.4        $823          $564       $306
            32            4          $1,081                  $4,324             $129            $517             $952           736.4      $3,290        $2,256      $1,222
             8           10          $1,081                 $10,810             $126          $1,260             $955           757.9      $8,290        $5,770      $3,250
            53            1          $1,081                  $1,081             $116            $116             $965           829.3        $848          $616       $383
            36           14          $1,081                 $15,134             $116          $1,629             $965           829.3     $11,877        $8,620      $5,362
            30            1          $1,081                  $1,081             $116            $116             $965           829.3        $848          $616       $383
            51            7          $1,081                  $7,567             $116            $812             $965           831.9      $5,943        $4,319      $2,695
                         80          $1,047                 $85,592             $270         $18,869                            376.3     $48,174       $25,201     $14,212
 Weighted #'s:                                               $1,070                             $236
 Average Allowed Mark-Up:               354%
 Total Savings based on 100% cap=                           $48,174
 Total Savings based on 300% cap=                           $25,201
 Total Savings based on 500% cap=                           $14,212
 *Potential Savings=         (column 4-(column 6 * 100% Mark-up)
 Note: We did not do an analysis to determine the quality between the orthotic body jackets that had an invoice cost of $116 vs $700.




Medicare Payments for Orthotic Body Jackets                                            13                                                                OEI-04-97-00391
                                                                                    APPENDIX A
                                                                                    con’t
Potential Medicare Savings for Code L0430

Orthotic Body Jacket with Mark-ups over 100, 300, and 500

percent

        1.	      100%: $48,174 (Total Potential Overpayment for Sample)
                 300%: $25,201 (Total Potential Overpayment for Sample)
                 500%: $14,212 (Total Potential Overpayment for Sample)

        2.       Multiply the overpayment by .80, since Medicare pays 80% of the allowed charge.

                 100%: $48,174 x .80 = $38,359 (Loss to the Medicare program)
                 300%: $25,201 x .80 = $20,161 (Loss to the Medicare program)
                 500%: $14,212 x .80 = $11,370 (Loss to the Medicare program)

        3.	      Multiply the loss to the Medicare program by 20, since these figures are on a 5
                 percent sample.

                 100%: $38,359 x 20 = $770,780
                 300%: $20,161 x 20 = $403,220
                 500%: $11,369 x 20 = $227,380

        4.       Projected savings over 5 years.

                 100%: $770,780 x 5 = $3,853,900
                 300%: $403,220 x 5 = $2,016,100
                 500%: $227,380 x 5 = $1,136,900

        Note: Our projection is conservative as it is based on 80 of the 302 claims from a 5 percent
        sample of the National Claims History file. If we analyzed a larger portion of the 302
        claims our overpayment estimates of $14,212 - $48,174 would probably be much higher.

Confidence Intervals

   Mark-up      Sample       Potential          +/-           Lower 95%             Upper 95%
                 Size       Overpayment                    Confidence Interval   Confidence Interval
    100%           80          $770,780       $74,328          $696,452              $845,108
    300%           80          $403,220       $81,806          $321,410              $485,022
    500%           80          $227,380       $50,595          $176,785              $277,975



Medicare Payments for Orthotic Body Jackets           14                                 OEI-04-97-00391
                                                   APPENDIX B




Medicare Payments for Orthotic Body Jackets   15     OEI-04-97-00391
                                                   APPENDIX B
                                                   con’t




Medicare Payments for Orthotic Body Jackets   16     OEI-04-97-00391
